HHS/OIG, Audit -"Review of Medicaid Speech Claims Made by School Health Providers in New York State,"(A-02-02-01030)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Speech Claims Made by School Health Providers in
New York State," (A-02-02-01030)
February 17, 2004
Complete
Text of Report is available in PDF format (6.86 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of the audit was to determine whether Medicaid reimbursement for speech services claimed by 711 school and
preschool providers in New York from September 1993 through June 2001 were allowable under Federal and State law.  Based
on a statistically valid sample, we estimate that providers claimed approximately $172.6 million (Federal share) for speech
services that were not allowable for reimbursement.  The claims were unallowable mostly because services lacked a
referral by an appropriate medical professional, and/or the services did not comply with Federal law requiring that speech
services be provided by or under the direction of a certified speech-language pathologist or an individual with similar
qualifications.  Among other things, we recommended a financial adjustment for the $172.6 million, and that New York
provide proper and timely guidance on Federal Medicaid criteria to schools and preschools.  New York generally disagreed
with our findings and recommendations.